NO. 20-____
In the

Supreme Court of the United States
ERNEST JOHNSON,
Petitioner,
V.

ANNE L. PRECYTHE, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 28th day of August, 2020, copies of the Petition for a Writ of Certiorari
were sent to:
Gregory M. Goodwin
Assistant Attorney General
Supreme Court Building
207 W. High Street
P.O. Box 899
Jefferson City, Missouri 65102
Gregory.Goodwin@ago.mo.gov
Respectfully submitted,

Arn Jacobsen

